U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Monex Deposit Company, et al. v. Commodity Futures
Trading Commission, S.Ct. No. 19-933

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on January 23, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government's response is now due on March 30, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 4, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0933
MONEX DEPOSIT COMPANY, ET AL.
CFTC

ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19THSTREET,NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
ADI.DYNAR@NCLA.LEGAL
NEIL A. GOTE[NER
FARELLA BRAUN & MARTEL LLP
235 MONTGOMERY STREET
17TH FLOOR
SAN FRANCISCO, CA 94104
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
DAVID C. MCDONALD
MOUNTAIN STATES LEGAL FOUNDATION
2596 SOUTH LEWIS WAY
LAKEWOOD, CO 80227
303-292-2021
DMCDONALD@MSLEGAL.ORG

RONALD W. OPSAHL
MOUNTAIN STATE LEGAL FOUNDATION
2596 SOUTH LEWIS WAY
LAKEWOOD , CO 80227
303-292-2021
ROPSAHL@MSLEGAL.ORG

